HHS/OIG-Audit--"Report on Compliance with Health and Safety Standards
at Native American Head Start Facilities, (A-09-9100134)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Report on Compliance with Health and Safety Standards at Native American
Head Start Facilities," (A-09-91-00134)
May 7, 1992
Complete
Text of Report is available in PDF format (2.99 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out concerns regarding compliance with health and safety
standards at Native American Head Start facilities. Significant numbers of
health and safety deficiencies have been reported at Native American Head Start
facilities. Of 106 facilities for which we reviewed safety inspection reports,
76 had fire safety problems, 55 had structural integrity concerns, 54 had water
supply or rest room inadequacies, and 53 were identified with playground deficiencies.
Recurring, serious deficiencies were reported at 23, or about 22 percent of
the 106 facilities reviewed. In most instances, health and safety inspections
were performed by the responsible entities. However, our review disclosed that
health and safety inspections: were not standardized; were sometimes inconsistent
with previous inspections of the same facility; were not always performed annually;
and were conducted by agencies which lacked authority to require correction
of deficiencies. Officials from the Administration for Children and Families
generally agreed with our findings.